Report No. D-2011-071                    June 16, 2011




      U.S. Air Force Academy Could Have Significantly
    Improved Planning Funding, and Initial Execution of
       the American Recovery and Reinvestment Act
                     Solar Array Project
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CSU                           Colorado Springs Utilities
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
FSRM                          Facilities Sustainment, Restoration, and Modernization
GAO                           Government Accountability Office
IGCE                          Independent Government Cost Estimate
MW                            Megawatt
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
USAFA                         U.S. Air Force Academy
                                  INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON, VIRGINIA 22202-4704 


                                                                             June 16,2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: U.S . Air Force Academy Could Have Significantly Improved Planning,
         Funding, and Initial Execution of the American Recovery and Reinvestment
         Act Solar Array Project (Report No. D-2011-071)

We are providing this report for review and comment. The U.S . Air Force Academy
(USAFA) properly justified the solar array project; however, the USAFA did not have
proper controls to ensure that the project was planned, funded, and initially executed in
accordance with Federal Acquisition Regulation requirements.

DoD Directive 7650.3 requires that all reconnnendations be resolved promptly. The
Deputy Chief of Staff for Manpower and Personnel and the Deputy Chief of Staff for
Logistics, Installations and Mission Support, Headquarters U.S. Air Force, did not
comment on a draft of this report. We request comments from the Deputy Chief of Staff
for Manpower and Persoilllel, Headquarters U.S. Air Force, on Reconnnendation I and
comments from the Deputy Chief of Staff for Logistics, Installations and Mission
SuppOli, Headquarters U.S. Air Force, on Recommendation 2 by July 18, 2011.

If possible, please send a .pdf file containing your comments to audacm!al,dodig.mil.
Copies of the management comments must contain the actual signature of the authorizing
official. We are unable to accept the !Signed! symbol in place of the actual signature. If
you anange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).


                                          fJJ-~ a~ tJV--­
                                            Bruce A. ifurton
                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-071 (Project No. D2009-D000AB-0169.004)                       June 16, 2011


               Results in Brief: U.S. Air Force Academy
               Could Have Significantly Improved Planning,
               Funding, and Initial Execution of the
               American Recovery and Reinvestment Act
               Solar Array Project

                                                        December 20, 2010, the project was over
What We Did                                             7 months behind schedule, and the USAFA had
Our audit objective was to review the planning,         no financial leverage to ensure its timely
funding, and initial execution (contracting) of a       completion.
project to provide solar power to the U.S. Air
Force Academy (USAFA). We determined                    What We Recommend
whether the USAFA complied with American                We recommend that the Deputy Chief of Staff
Recovery and Reinvestment Act (Recovery Act)            for Manpower and Personnel, Headquarters U.S.
requirements, Office of Management and                  Air Force, perform an administrative review to
Budget guidance, the Federal Acquisition                determine accountability for USAFA
Regulation (FAR), and DoD implementing                  categorization of all Recovery Act solar array
guidance.                                               project costs as a utility company connection
                                                        charge and take appropriate action if warranted.
What We Found                                           We also recommend that the Deputy Chief of
The USAFA properly justified the solar array            Staff for Logistics, Installations and Mission
project; however, it could have significantly           Support, Headquarters U.S. Air Force, develop
improved planning, funding, and initial                 policies and procedures for planning and
execution of the project in accordance with FAR         funding energy projects with public utility
requirements. This occurred because                     companies, which properly categorize the
                                                        contracted work and prevent advance payment
       the USAFA incorrectly categorized all            of all project funds except as specifically
       project costs as a utility company               authorized by law or regulation.
       connection charge and structured the
       project to require a single advance              Management Comments Not
       payment to Colorado Springs Utilities            Received
       (CSU) and                                        The Deputy Chief of Staff for Manpower and
                                                        Personnel and the Deputy Chief of Staff for
       the USAFA incorrectly exempted the
                                                        Logistics, Installations and Mission Support,
       solar array project from FAR
                                                        Headquarters U.S. Air Force, did not comment
       Subpart 32.4, ―Advance Payments for
                                                        on the draft of this report issued on March 28,
       Non-Commercial Items.‖
                                                        2011. We request that the Deputy Chief of Staff
As a result, the USAFA paid the $18.3 million           for Manpower and Personnel and the Deputy
program funds in advance to CSU instead of the          Chief of Staff for Logistics, Installations and
$1.2 million for connection of the solar array to       Mission Support, Headquarters U.S. Air Force,
the electrical grid, which was an allowable             provide comments by July 18, 2011. Please see
exemption of the FAR. In addition, as of                the recommendations table on the back of this
                                                        page.

                                                    i
Report No. D-2011-071 (Project No. D2009-D000AB-0169.004)             June 16, 2011

Recommendations Table

Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Deputy Chief of Staff for       1
Manpower and Personnel,
Headquarters U.S. Air Force
Deputy Chief of Staff for       2
Logistics, Installations and
Mission Support, Headquarters
U.S. Air Force

Please provide comments by July 18, 2011.




                                            ii
Table of Contents

Introduction	                                                               1


      Objective                                                             1

      Recovery Act Background                                               1

      The Energy Policy Act                                                 3

      The USAFA Mission                                                     4

      USAFA Internal Controls Were Inadequate                               5


Finding. USAFA Could Have Significantly Improved Planning, Funding, 

         and Initial Execution of the Solar Array Project                   6


      Project Planning                                                      6

               USAFA Properly Justified the Project                         6

               USAFA Incorrectly Categorized the Project as a Connection    6

      Project Funding                                                       7

               Analysis of Project Costs                                    7

               Improper Advance Project Funding                             8

      Initial Execution                                                     8

               USAFA Improperly Awarded the Delivery Order                  8

               USAFA Properly Posted Contracting Notifications and 

                  Included Required Contract Clauses                        9

               CSU Incurred a Delay in the Project                          9

      Conclusion                                                           10

      Recommendations                                                      11

      Management Comments Required                                         11


Appendices

      A. 	Scope and Methodology                                            12

             Scope                                                         12

             Methodology                                                   12

             Use of Computer-Processed Data                                13

             Prior Audit Coverage                                          13

      B. Recovery Act Criteria and Guidance	                               14

Introduction
Objective
The primary objective of the audit was to determine whether DoD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, ―Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,‖ February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, and initial execution
(contracting) of a Recovery Act project to provide solar power to the USAFA. We
determined whether the USAFA complied with Recovery Act requirements, OMB
guidance, the Federal Acquisition Regulation (FAR), and DoD implementing guidance.
See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
           (1)	 To preserve and create jobs and promote economic recovery.
           (2)	 To assist those most impacted by the recession.
           (3)	 To provide investments needed to increase economic efficiency by
                spurring technological advances in science and health.
           (4)	 To invest in transportation, environmental protection, and other
                infrastructure that will provide long-term economic benefits.
           (5)	 To stabilize State and local government budgets, in order to minimize
                and avoid reductions in essential services and counterproductive state
                and local tax increases.
                .         .        .         .       .        .       .

       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements in the following four phases: (1) planning,
(2) funding, (3) initial execution, and (4) tracking and reporting. The Recovery Act
requires that projects be properly planned to ensure the appropriate use of funds. Review
of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Review of the initial execution phase is to ensure that contracts
awarded with Recovery Act funds were transparent, competed, and contained specific
FAR clauses; that Recovery Act funds were used for authorized purposes; and that
instances of fraud, waste, and abuse were mitigated. Review of the initial execution
phase also ensures that program goals were achieved, including specific program


                                                  1

outcomes and improved results on broader economic indicators; that projects funded
avoided unnecessary delays and cost overruns; and that contractors or recipients of funds
reported results. Review of the tracking and reporting phase ensures that the recipients’
use of funds was transparent to the public and that benefits of the funds were clearly,
accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,

       publicizing contract actions, 

       reporting, and

       giving the Government Accountability Office and agency Inspectors General 

       access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, ―Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,‖
directs contracting officers to use the Government-wide FBO Web site
(http://www.fedbizopps.gov) to:

        identify the action as funded by the Recovery Act,

        post pre-award notices for orders exceeding $25,000,

        describe supplies in a clear narrative to the general public, and

        provide the rationale for awarding any contracting actions that were not both 

        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables



                                            2

FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance and DoD and the Components issue their implementation
guidance. OMB has issued 11 memoranda and one bulletin to address the
implementation of the Recovery Act. See Appendix B for Recovery Act criteria and
guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military
Construction; Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers Civil Works.
     Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs
                             Program                          Amount
                                                            (in millions)
     Energy Conservation Investment                               $120
     Facilities Sustainment, Restoration, and Modernization      4,260*
     Homeowners Assistance                                         555
     Military Construction                                       2,185
     Near Term Energy-Efficient Technologies                       300
     U.S. Army Corps of Engineers Civil Works                    4,600
        Total                                                 $12,020*

*On August 10, 2010, Public Law 111-226, Title III, ―Rescissions,‖ rescinded $260.5 million of funds from
DoD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DoD Recovery
Act FSRM amounts to approximately $4 billion and total DoD Agency-wide and Program-Specific
Recovery Act program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 32 DoD and U.S. Army
Corps of Engineers line items of appropriations. This report covers one FSRM project,
valued at $18.3 million, to provide solar power to the USAFA.

The Energy Policy Act
Congress passed Energy Policy Act of 2005, Public Law No. 109-58, section 203, 119
Stat. 594 (2005). One of its goals is to increase the Federal Government’s total
renewable energy use, based on the following targets:




                                                   3


       • not less than 3 percent in 2007 through 2009,
       • not less than 5 percent in 2010 through 2012, and
       • not less than 7.5 percent in 2013 and each year thereafter.

Solar power is one of the renewable energy sources promoted in the Energy Policy Act.
In addition, Exec. Order No. 13423, 72 Fed. Reg. 17 (2007) requires that Federal
agencies ensure that at least half of the statutorily required renewable energy consumed
in a fiscal year comes from new renewable sources, and to the extent feasible, the agency
implements renewable energy generation projects on agency property for agency use.

The USAFA Mission
The USAFA is both a military organization and a university. Much of the Academy is
set up like most other Air Force bases, particularly the 10th Air Base Wing, but the
superintendent, commandant, dean of faculty, and cadet wing are set up in a manner
resembling a civilian university.

The 10th Air Base Wing comprises more than 3,000 military, civilian, and contract
personnel, who conduct all base-level support activities, including law enforcement and
force protection, civil engineering, communications, logistics, military and civilian
personnel, financial management, services, and clinics for a military community of about
25,000 people.

The 2009 USAFA Energy Strategic Plan objectives were to
              Become a ―Net-Zero‖ electricity installation by the end of
              calendar year 2015,
              Meet all federal energy reduction mandates,
              Play a leading role in renewable energy research, and
              Embody each cadet with an understanding that energy must be a
              consideration in all we do.
Figure 1 shows the current state of the ongoing construction of the solar array at
the USAFA as of February 16, 2011.

                           Figure 1. USAFA Solar Array Project




                                             4

USAFA Internal Controls Were Inadequate
DoD Instruction 5010.40, ―Managers’ Internal Control Program (MICP) Procedures,‖
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We determined that USAFA
internal controls over planning, funding, and initial execution of the solar array project
were inadequate as they applied to the audit objectives. Specifically, the USAFA
incorrectly categorized all project costs as a utility company connection charge, which
caused the USAFA to make an improper advance payment. We will provide a copy of
the report to the senior officials responsible for internal controls in the Air Force.




                                             5

Finding. USAFA Could Have Significantly
Improved Planning, Funding, and Initial
Execution of the Solar Array Project
The USAFA properly justified the solar array project; however, it could have
significantly improved planning, funding, and initial execution of the project in
accordance with FAR requirements. This occurred because the USAFA incorrectly
categorized all project costs as a utility company ―connection charge‖ and structured the
project to require an advance payment to the utility company at the time of the contract
award. As a result, the USAFA paid all $18.3 million of Recovery Act funds when
awarding the contract. As of December 20, 2010, the project was over 7 months behind
schedule, and the USAFA had no financial leverage to ensure its timely completion.

Project Planning
USAFA Properly Justified the Project
The USAFA provided project information on a DD 1391, ―Military Construction Project
Data.‖ DoD Regulation 7000.14-R, ―DoD Financial Management Regulation,‖ requires
DoD Components to use a DD 1391 to support the request for authorization of both new
construction and urgent unforeseen projects using emergency or contingency
authorization. We reviewed the April 10, 2009, DD 1391 and supporting cost
documentation for the solar array project. The DD 1391 adequately explained the project
justification, requirements, current state, and impact if the project was not implemented.
We reviewed the Energy Policy Act of 2005 and Exec. Order No. 13423 and concluded
that the USAFA needed to increase its use of renewable energy to meet its energy
reduction goals required by public law. We concluded that the Recovery Act project was
based on a valid USAFA renewable energy requirement.

On April 20, 2009, the USAFA completed a business case analysis to evaluate and
compare five alternatives to meet USAFA renewable energy goals and mandates and
concluded that creating a strategic partnership with Colorado Springs Utility (CSU)—in
which the utility would construct, connect, own, operate, and maintain a 3-megawatt
(MW) solar array—was the best way to implement the requirement. CSU provided
electric, gas, water, wastewater, and energy management services to the USAFA under a
2006 General Services Administration Area-Wide Utility contract.

USAFA Incorrectly Categorized the Project as a Connection
The USAFA took a broad view of the term ―connection‖ and determined that the entire
solar array project, rather than just the connection of the solar array to the power grid,
could be categorized as a connection. Accordingly, the USAFA contracting officer and
civil engineering personnel considered the project costs to be exempt from the provisions
of FAR subpart 32.4. FAR 32.404(a)(5), ―Exclusions,‖ states that FAR subpart 32.4
provisions do not apply to an extension or connection of public utilities for Government
buildings or installations authorized by law.


                                            6

USAFA civil engineering personnel identified the requirements for the solar array project
in a June 30, 2009, statement of objective. The statement of objective requested that
CSU perform an overall project design to determine the size of a solar array that could be
constructed within an $18.3 million budget parameter. The statement of objective also
said that the $18.3 million connection charge would be paid when the delivery order was
signed. The USAFA provided the statement of objective to CSU in lieu of a request for
proposal.

Project Funding
Analysis of Project Costs
The March 20, 2009, ―DoD Expenditure Plan for the American Recovery and
Reinvestment Act of 2009‖ included the USAFA solar array project, valued at
$18.3 million and funded through appropriation code 57-3404, Air Force Recovery Act,
Operation and Maintenance. On March 24, 2009, the Office of the Assistant Secretary of
the Air Force (Financial Management and Comptroller) issued a Budget
Authorization/Allocation document to the USAFA for $18.3 million.

Both the independent Government cost estimate (IGCE), April 20, 2009, and the CSU
proposal, July 29, 2009, placed the estimated project costs into seven categories. These
categories were later included in the contract. Table 2 shows the seven categories and
their estimated costs.

                         Table 2. Solar Array Project Costs
                      Category                  IGCE        CSU Proposal
         Environmental assessment                 $77,000       $100,000
         Engineering design                       504,000         550,000
         Purchase and installation of solar    16,800,000      16,108,500
         panels
         Connection of solar array to grid        600,000       1,200,000
         Due diligence study                      100,000         250,000
         Project management                       220,000
         General and administrative expenses                       91,500
           Total connection charge            $18,301,000     $18,300,000


The seven categories included one for the connection of the solar array to the grid, and
the overall project estimated and proposed costs were titled ―total connection charge.‖
The IGCE and the CSU proposal estimates were based on allocation of the $18.3 million
identified for the project in both the DoD expenditure plan and the statement of objective.
Both the IGCE and the CSU proposal lacked detailed analysis of the project costs or
sufficient supporting documentation.




                                            7

Improper Advance Project Funding
USAFA Financial Management personnel should not have paid the full contract amount
of $18.3 million in advance. FAR subpart 32.4 states that ―advance payment is the least
preferred method of contract financing‖ and should be used ―sparingly.‖ If advance
payments are used, the agency head must show in writing how the advance payment is in
the public interest. The agency must also ensure that the advance payment will not
exceed the contractor’s interim cash needs, based on an analysis of the cash flow required
for contract performance. In addition, FAR 32.407, ―Interest,‖ states that the contracting
officer shall charge interest on the daily unliquidated balance of all advance payments.

The determination by the USAFA contracting officer and civil engineering personnel that
the project was a connection charge resulted in the USAFA exempting the project from
the provisions of FAR subpart 32.4.

We disagree with the interpretation that the entire amount was a connection charge. The
September 2008 ―United States Air Force Utilities Privatization Policy and Guidance
Playbook‖ defines a connection charge as paying the utility owner to install the service
line between the building point of demarcation and the utility main. Reasonable
interpretation of the term ―connection‖ suggests that only the costs for work necessary to
connect the solar array to the power grid, and not the costs for installation of the solar
array, should be included as a valid connection charge.

The total cost of the project was not a connection charge, as defined under FAR
32.404(a)(5), and the advance payment of the $18.3 million of project cost should not
have been made to CSU. Instead, only the $1.2 million for ―connection of the solar array
to the grid‖ should have been excluded from the provisions of FAR subpart 32.4.
                                       Therefore, $17.1 million of the $18.3 million was
    As of September 30, 2010, the      not exempt from FAR subpart 32.4. The USAFA
     unliquidated balance of the       contracting officer did not make advance payments
   $15.3 million advance payment       based on an analysis of the cash flow required for
       would have earned the           contract performance or charge the contractor
       Government more than            interest on the daily unliquidated balance of the
        $676,000 in interest.          advance payment as required by FAR 32.407. As
                                       of September 30, 2010, only $1.8 million of the
$17.1 million had been spent by CSU. Therefore, as of September 30, 2010, the
unliquidated balance of the $15.3 million advance payment would have earned the
Government more than $676,000 in interest.

Initial Execution
USAFA Improperly Awarded the Delivery Order
The USAFA provided the June 30, 2009, statement of objective to CSU in lieu of a
request for proposal. On July 14, 2009, before submittal of the CSU proposal and the




                                            8

delivery order award, the Colorado Springs City Council approved a CSU tariff1 that
included an $18.3 million payment for on-site, direct-service solar contract service for the
USAFA, for the billing period of July 15, 2009, to September 30, 2009. The CSU
proposal, dated July 29, 2009, included the statement that the USAFA would pay a
connection charge of $18.3 million to CSU upon signature of the amended contract.

On August 6, 2009, the USAFA contracting officer awarded delivery order FA7000-09-
F-0023 for General Services Administration Area-Wide Utilities contract GS-00P-06-
BSD-0399. The delivery order award was firm-fixed-priced at $18.3 million to CSU.
The delivery order was signed in accordance with the statement of objective and the CSU
proposal and required an advance payment for a connection charge of $18.3 million.

USAFA civil engineering personnel stated that the advance payment of $18.3 million was
required by the CSU tariff. As shown in the previous paragraph, the tariff (law) that
required the advance payment, and therefore the exclusion from complying with FAR
subpart 32.4, had not yet been issued or approved when the USAFA provided the
June 30, 2009, statement of objective to CSU. In fact, the tariff payment schedule was
based on the determination in the June 30, 2009, statement of objective that the USAFA
would pay a connection charge of $18.3 million to CSU upon signature of the amended
contract.

USAFA Properly Posted Contracting Notifications and Included
Required Contract Clauses
USAFA contracting personnel met basic Recovery Act contracting goals by properly
posting presolicitation and award notices for the solar array project on the FBO Web site.
The language in the presolicitation and award notice met the intent of the Recovery Act
project requirements.

USAFA contracting personnel properly posted the August 6, 2009, award of delivery
order FA7000-09-F-0023 in the FPDS. The FPDS showed the delivery order was a firm-
fixed-priced award to CSU for $18.3 million with an estimated completion date of
November 18, 2010. It also included the treasury account symbol 57-3404, Air Force
Recovery Act, Operation and Maintenance, which enabled FPDS to provide transparency
by generating and posting a report containing all Recovery Act contract actions. The
USAFA contracting officer properly included the required FAR clauses for the delivery
order of the solar array project.

CSU Incurred a Delay in the Project
The solar array project did not proceed within the planned project schedule. Delivery
order FA7000-09-F-0023 was awarded on August 6, 2009. Delivery order FA7000-09-F-
0023 required CSU to complete the project by the CSU-proposed date of November 18,
2010. On April 23, 2010, the contracting officer extended the period of performance on
the delivery order 133 days, to March 31, 2011. On September 22, 2010, CSU awarded a


1
    The Colorado Springs city tariff implements public utility schedules of rates of charges to CSU customers.


                                                             9

subcontract to SunPower Corporation for $16 million, to build a 5.2-MW solar array at
the USAFA. In accordance with the statement of objective and the CSU proposal, the
size of the solar array was increased from 3 MW to 5.2 MW—the size that could be
constructed within the $18.3 million budget parameter. CSU incurred a 6-month delay
(until September 2010) in awarding a construction subcontract for the project. On
December 20, 2010, the contracting officer again extended the period of performance
91 days to June 30, 2011. Altogether, the contract period of performance increased
224 days, or approximately 50 percent. Table 3 shows the planned and actual project
milestone dates.

                        Table 3. Solar Array Project Milestones
             Project Milestone                 Planned               Actual
    Prime contract award                 July 31, 2009        Aug. 6, 2009
    Environmental assessment             March 12, 2010       April 21, 2010
    Award solar array construction       March 26, 2010       Sept. 22, 2010
    subcontract
    Solar array project completion       Nov. 18, 2010        June 30, 2011
                                                              (present estimate)

The prime contract with CSU included planned milestones but no percentage-of-
completion requirements because all funds were paid at contract signing. In addition, the
prime contract did not include any liquidated damages for contractor noncompliance with
the planned milestones or interest charges. As a result of the up-front outlay of all
$18.3 million, the Government retained no payment leverage in the management of the
solar array project execution, which was over 7 months behind schedule as of
December 20, 2010.

Conclusion
The USAFA Solar Array project was a justified requirement necessary to meet renewable
energy goals required by public law. However, the USAFA decision to categorize the
entire solar array project as a connection charge led to planning, funding, and initial
execution problems.

The USAFA incorrectly categorized the entire solar array funded cost as a connection
charge. The requirement for the full $18.3 million in advance payment resulted from a
decision by the USAFA contracting officer and civil engineering personnel, not from the
subsequent tariff. Only the $1.2 million for connection of the solar array to the grid
should have been excluded from the provisions of FAR subpart 32.4. The USAFA
statement of objective, and therefore the delivery order, should have included a multiple
payment schedule rather than a onetime advance payment of $18.3 million. The USAFA
contracting officer would then have ensured that Government interests were protected.




                                           10

Recommendations
1. We recommend that the Deputy Chief of Staff for Manpower and Personnel,
Headquarters U.S. Air Force, perform an administrative review to determine
accountability for U.S. Air Force Academy categorization of all Recovery Act solar array
project costs as a utility company connection charge and take appropriate action if
warranted.

2. We recommend that the Deputy Chief of Staff for Logistics, Installations and Mission
Support, Headquarters U.S. Air Force, develop policies and procedures for planning and
funding energy projects with public utility companies, which properly categorize the
contracted work and prevent unauthorized advance payment of all project funds.

Management Comments Required
The Air Force did not comment on a draft of this report. We request that the Air Force
provide comments on the final report.




                                           11

Appendix A. Scope and Methodology
We conducted this audit from September 2009 through March 2011 in accordance with
generally accepted government standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our conclusions based on our audit objectives.

Scope
We selected one FSRM project with a total estimated cost of $18.3 million. This project
consisted of the design, construction, connection, and maintenance of a solar array at the
USAFA. Our review included interviewing staff at Headquarters U.S. Air Force, the
USAFA, and the Air Force Civil Engineering Support Agency. We also reviewed
requirements, contracting, and financial documentation from August 2005 through
December 2010.

Methodology
To accomplish our objective, we audited the planning, funding, and initial execution of
the USAFA Recovery Act solar array project to determine whether Air Force efforts
complied with Recovery Act requirements, OMB guidance, the FAR, and DoD
implementing guidance. Specifically, we determined whether:

       the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
       funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
       contracts contained required Recovery Act FAR clauses (Initial Execution); and
       projects avoided unnecessary delays and cost overruns (Project Execution).

Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed us to quantify the risk
based on expert auditor judgment, and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations. The $18.3 million USAFA solar
array FSRM project was included in the 83 projects selected.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended but also of types of projects and types of locations across the Military

                                            12

Departments, Defense agencies, State National Guard units, and public works projects
managed by U.S. Army Corps of Engineers.

Use of Computer-Processed Data
We used computer-processed data from the FBO Web site, data reported in FPDS, and
contract documentation from the Electronic Document Access System posted from May
2009 through December 2010 to perform this audit. Specifically, we used the FBO Web
site to determine whether the Air Force had met the requirements for transparently
reporting Recovery Act-funded contract actions. We tested the accuracy of these data by
obtaining copies of contract documentation. We also interviewed program officials
responsible for reporting on Recovery Act actions. No problems with data integrity came
to our attention during the audit. From these procedures, we concluded that the DoD data
were sufficiently reliable for our audit purposes.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                          13

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

       U.S. House of Representatives Conference Committee Report 111-16, ―Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,‖ February 12, 2009

       Public Law 111-5, ―American Recovery and Reinvestment Act of 2009,‖
       February 17, 2009

       OMB Memorandum M-09-10, ―Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,‖ February 18, 2009

       OMB Bulletin No. 09-02, ―Budget Execution of the American Recovery and
       Reinvestment Act of 2009 Appropriations,‖ February 25, 2009

       White House Memorandum, ―Government Contracting,‖ March 4, 2009

       White House Memorandum, ―Ensuring Responsible Spending of Recovery Act
       Funds,‖ March 20, 2009

       OMB Memorandum M-09-15, ―Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,‖ April 3, 20091

       OMB Memorandum M-09-16, ―Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,‖ April 7, 2009

       OMB Memorandum M-09-19, ―Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),‖ June 1, 2009

       OMB Memorandum M-09-21, ―Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,‖
       June 22, 20092

       OMB Memorandum M-09-24, ―Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,‖ July 24, 2009

       OMB Memorandum M-09-30, ―Improving Recovery Act Recipient Reporting,‖
       September 11, 2009

                                           14

         OMB Office of Federal Procurement Policy, ―Interim Guidance on Reviewing
         Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
         Clause 52.204-11,‖ September 30, 20092

         OMB Memorandum M-10-08, ―Updated Guidance on the American Recovery
         and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
         Job Estimates,‖ December 18, 20092

         OMB Memorandum M-10-14, ―Updated Guidance on the American Recovery
         and Reinvestment Act,‖ March 22, 20102

         White House Memorandum, ―Combating Noncompliance with Recovery Act
         Reporting Requirements,‖ April 6, 20102

         OMB Memorandum M-10-17, ―Holding Recipients Accountable for Reporting
         Compliance under the American Recovery and Reinvestment Act,‖ May 4, 20102

         OMB Memorandum M-10-34, ―Updated Guidance on the American Recovery
         and Reinvestment Act,‖ September 24, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.


                                                     15

